SEMIANNUAL REPORT TO CONGRESS




       U.S. ELECTION ASSISTANCE
                COMMISSION
     OFFICE OF INSPECTOR GENERAL




For the Period:
April 1, 2009, through
September 30, 2009
U.S. Election Assistance Commission
    Office of Inspector General
A Message from the Inspector General

This report is submitted to Congress pursuant to the Inspector General
Act of 1978, as amended. It summarizes the activities of the Office of
Inspector General (OIG) for the six-month period ending September 30,
2009.


During this semiannual reporting period, we issued three reports on the
states’ uses of Help America Vote Act (HAVA) funds. We found that for
the most part states are using HAVA funds properly, but there were
issues with procurement processes, documenting expenses—including
salaries—and inventorying equipment purchased with Federal funds. The
reports resulted in $2.7 million in questioned costs, identified more than
$12,000 in additional program funds, and made 28 recommendations to
the EAC.


Over the past six months, we are pleased to see improvements in EAC
operations, particularly its financial management activities. There is still
much work to be done to develop and implement policies and procedures
that underpin EAC operations and ensure its future success. The OIG will
continue to work with the EAC as it develops these fundamental policies.


The OIG is also pleased to see a reduction in monetary findings
associated with its audits of the states and their uses of HAVA funds. We
hope that this trend will continue and that states will take advantage of
training opportunities and insights to be gained from the many reports
that the OIG has issued regarding the use of HAVA funds.


Submitted October 30, 2009



Curtis W. Crider
Inspector General
Profile of Performance



                        Profile of Performance
   for the Period April1, 2009, through September 30, 2009

Results
Questioned Costs                                 $ 2,745,126
Potential Additional Program Funds                $ 12,182
Funds to be Put to Better Use                        $0
Table of Contents

                                                  Page


Election Assistance Commission Profile             1


Office of Inspector General Profile                2

State Audits                                       3

Other Activities                                   5


Appendices:


  A. Reports Issued                                9
  B. Monetary Impact of Audit Activities          10
  C. Reports with Questioned Costs                11
  D. Reports with Potential Additional Program    12
     Funds
  E. Summary of Reports More Than 6 Months        13
     Old Pending Corrective Action At September
     30, 2009
  F. Summary of Reports More Than 6 Months        15
     Old Pending Management Decision at
     September 30, 2009
  G. Reporting Requirements of the Inspector      16
     General Act
This Page Left Blank Intentionally.
Election Assistance Commission Profile

The U.S. Election Assistance Commission (EAC or Commission) is a
bipartisan, independent commission consisting of four members: Gineen
Bresso Beach, Chair; Gracia Hillman, Vice Chair; and Donetta Davidson.
There is one vacancy on the Commission due to the resignation of a
Commissioner in February 2009.


The EAC was created by the Help America Vote Act of 2002 (HAVA) to
assist states with improving the administration of elections for Federal
office. The EAC accomplishes this mission by providing funding,
innovation, guidance and information that can be used by the states to
purchase equipment, train election personnel, and implement new
election programs. The EAC has distributed more than $3.1 billion in
funding to the 50 states, the District of Columbia, Puerto Rico, the U.S.
Virgin Islands, Guam and American Samoa (hereinafter referred to as
“states”). With those funds, the states have purchased voting equipment,
established statewide voter registration lists, implemented provisional
voting, provided informational material to voters at the polling place, and
implemented a program to verify the identity of voters using the
statewide voter registration list in combination with other state and
Federal databases.


HAVA also placed EAC in charge of the first Federally-run testing and
certification program for voting systems. Through its program, the EAC
develops standards for voting equipment, accredits laboratories, and
reviews and certifies voting equipment based upon the tests performed
by the accredited laboratories.


The EAC also has the responsibility for administering the National Voter
Registration Act (NVRA) by promulgating regulations for the content and
use of the National Mail Voter Registration form. The EAC inherited the
responsibility from the Federal Election Commission.




                                     1
Office of Inspector General Profile

The EAC is a designated Federal entity under the Inspector General Act
(IG Act) of 1978 (5 U.S.C.A. App. 3). As such, the Commission in August
2006 appointed the Inspector General. The OIG also employs a senior
auditor and a general counsel.


We perform the duties of the Inspector General as established in the IG
Act, including:


      Conducting and supervising audits, investigations, and other
       services (e.g., evaluations) relating to the programs and operations
       of the EAC;


      Providing leadership and coordination, and recommending actions
       to management, which (1) promote economy, efficiency, and
       effectiveness in agency programs and operations; and (2) prevent
       and detect fraud, waste, abuse, and mismanagement of
       government resources; and


      Keeping the agency head, management, and Congress fully
       informed regarding problems and deficiencies, and the progress of
       corrective actions.


To accomplish all of this with our limited staff, we use contract auditors
to conduct many of the state and agency audits. In addition, when
conducting an investigation, we work with other Federal government
agencies to detail or contract for investigative services.


Since the inception of the audit program, the OIG has completed audits of
22 states – with audits of additional five states under way – and through
the completed audits reported findings related to states’ expenditures of
nearly $25.5 million. In the first several fiscal years, the OIG questioned
a greater percentage of HAVA funds based upon their use. However, over


                                      2
the past fiscal year, the OIG has seen a reduction in the monetary
findings associated with its HAVA funds audits. This is directly
attributable the states’ efforts to effectively monitor and document their
use of federal funds. In fact, one state audited in the current reporting
period received no monetary findings and one state audited during a
prior period received a clean audit.


The OIG’s program to ensure economy, efficiency and integrity in the use
of funds is not exclusively translated into audits. The OIG has also
worked with the EAC to help educate states on the requirements that are
associated with federal funding. This educational effort included a joint
training session at the National Association of Secretaries of State Winter
Conference.

State Audits

The OIG conducts audits of the recipients of HAVA funds. Through those
audits, the OIG examines whether the recipient used HAVA funds in
accordance with HAVA and other applicable Federal requirements. We
also determine whether the recipient has properly accounted for
purchases made with HAVA funds and any income derived from those
purchases. Last, we assessed whether grant funding has been
maintained and accounted for in keeping with HAVA, particularly,
whether the recipient has provided sufficient matching funds and
maintained Federal monies in a separate election fund.


During the reporting period, the OIG contracted with the professional
auditing firm Clifton Gunderson LLP to conduct the audits. Three reports
were issued based upon those audits:


Oregon: The audit of the Oregon Secretary of State’s Election Division
(SOS-ED) revealed that the SOS-ED generally accounted for and expended
HAVA funds in accordance with the HAVA requirements and complied
with the financial management requirements established by the EAC. The



                                       3
SOS-ED also complied with section 251 requirements. However, the SOS-
ED did not maintain a comprehensive inventory of property as required
by the Uniform Administrative Requirements for Grants and Cooperative
Agreements with State and Local Governments, 41 C.F.R. § 105-71.132.

In its response to the draft report, the SOS-ED generally agreed with the
report’s findings and recommendations and provided corrective actions.


Iowa: An audit of the Iowa Secretary of State (SOS) disclosed that the SOS
did not account for and expend HAVA funds in accordance with HAVA
and applicable Office of Management and Budget Circulars. Specifically,
the report cited the SOS for (1) failing to timely deposit its matching
funds into the state’s election fund resulting in an interest deficit of
$12,182; (2) allowing counties to deposit interest earned on HAVA funds
into their general funds rather than being used to benefit the HAVA
program; (3) failing to maintain required inventories of equipment; (4)
using $369,740 for capital improvement of polling places without pre-
approval by the EAC; (5) using sole source procurement to acquire
$1,222,501 in goods and services; (6) using $118,224 for promotional
activities not authorized by HAVA; (7) using $14,000 to purchase radio
commercials that did not meet one of the approved purposes outline in
HAVA; (8) failing to adequately support $885,573 in personnel charges;
(9) using $21,000 for a lease agreement from which no tangible benefit
was received; and (10) filing errant reports with the EAC. The audit
resulted in questioning $2,555,274 in costs and identifying $12,182 that
should be used for program purposes.


In its responses to the findings and recommendations, the SOS generally
disagreed with the majority of findings but has implemented remedial
measures recommended by the OIG. Several issues are left to the
resolution of the EAC, particularly whether the EAC will retroactively
approve the use of HAVA funds for capital improvements, whether EAC
will accept affidavits of a former SOS employee as documentation of
personnel expenses, and how the EAC will treat non-competitively let
procurements made by the SOS.


                                      4
Rhode Island: An audit of the State of Rhode Island and Providence
Plantations Secretary of State (SOS) found that the SOS generally
accounted for and expended HAVA funds in accordance with the HAVA
requirements and complied with the financial management requirements
established by the EAC. Several exceptions were noted: (1) the SOS filed
incomplete financial reports with the EAC; (2) HAVA receipts and
expenditures under HAVA sections 101 and 251 were commingled in the
state’s accounting system; (3) the state did not adequately document
personnel costs of $189,852; (4) more than 35% of the state’s cities and
towns reported using HAVA funded equipment for non-HAVA related
activities; and (5) the state failed to timely deposit matching funds in to
the election fund resulting in an undetermined interest deficit.


In its responses to the findings and recommendations, the SOS generally
agreed with the findings and recommendations made by the OIG. In one
exception, the SOS disputed that calendar notations and time logs were
insufficient documentation of personnel costs.


Other Activities

Reviews of Legislation, Rules, Regulations and Other Issuances


The OIG conducts regular monitoring of EAC program activities and
policy-making efforts. We provide comment to significant policy
statements, rulemaking and legislation that affects the EAC. During the
reporting period, the OIG provided comments on four legislative
proposals circulated by the Council on Inspectors General for Integrity
and Efficiency. The OIG also provided suggested revisions to the EAC’s
Freedom of Information Act regulations as well as its Privacy Act system
of records to reflect the designation of a FOIA Officer for the OIG.




                                      5
Non-Federal Audits


OMB Circular A-133 establishes audit requirements for State and local
governments, receiving Federal awards. Covered entities that expend
$500,000 or more a year in Federal awards are required to obtain an
annual organization-wide audit “single audit”. The audits are conducted
by non-Federal auditors, such as public accounting firms and State
auditors. OIG reviews the resulting audit reports, findings and
questioned costs related to EAC awards.


During this reporting period, the OIG referred the following Single Audits
to the EAC:


      California Statewide Single Audit for the Year Ended June 30, 2008


      Nebraska Statewide Single Audit for the Year Ended June 30, 2008


      State of Iowa Single Audit Report for the Year Ended June 30, 2008

Investigations


The OIG operates a hotline for the receipt of complaints from employees
and members of the public. The OIG received 23 complaints during the
reporting period. Some of those complaints did not warrant an
investigation given the nature of the complaint. The OIG initiated one,
ongoing investigation of hotline or other complaints during the reporting
period.


Prosecutions


During the reporting period, four persons were indicted on 200 counts
related to the use of HAVA funds. The OIG’s audit of the subject state
was the basis of a state-led investigation into the activities of state
officials and contractors. The investigation culminated in a presentation




                                      6
to the state’s grand jury which returned indictments ranging from
embezzlement to money laundering to tax evasion.


Review and Oversight


The OIG often works closely with grantees as they investigate claims of
improper uses of grant funds. During the current reporting period, the
OIG worked with the state of Florida as it reviewed expenditures made by
the Hillsborough County Supervisor of Elections Office in preparation for
the November 2008 election. The state of Florida commissioned an
analysis of the funds that revealed some inappropriate uses of funds and
some expenditures that the county could use to offset the questionable
ones. A final report was issued on August 20, 2009 and is now pending
resolution by the EAC.


Other Activities


The IG Act requires reporting on other activities. We are reporting no
activities in the following categories:


      Matters Referred to Prosecuting Authorities


      Denial of Access to Records


      Significant Revised Management Decisions Made During the Period


      Significant Management Decisions with Which the Inspector General
       Disagrees




                                      7
This Page Left Blank Intentionally.




                8
                                                      Appendix A
Reports Issued


State Audits     1. Administration of Payments Received Under
                 the Help America Vote Act by the Oregon
                 Secretary of State’s Election Division
                 (Assignment Number E-HP-OR-07-08), June
                 2009


                 2. Administration of Payments Received Under
                 the Help America Vote Act by Iowa’s Secretary
                 of State (Assignment Number E-HP-IA-06-08),
                 September 2009


                 3. Administration of Payments Received Under
                 the Help America Vote Act by The Rhode Island
                 and Providence Plantations Secretary of State’s
                 Election Division (Assignment Number E-HP-
                 RI-05-07), September 2009




                           9
                                                         APPENDIX B
Monetary Impact of Audit Activities


Questioned Costs*                                      $ 2,745,126
Potential Additional Program Funds                       $ 12,182
Funds to Be Put to Better Use                                  $0
Total                                                  $ 2,757,308
*Unsupported costs are included in questioned costs.




                                         10
                                                            APPENDIX C
Reports With Questioned Costs

                                             Questioned    Unsupported
            Category             Number        Costs          Costs

A. For which no management
decision had been made by
the beginning of the reporting
period.                            1          $ 261,808        $0

B. Which were issued during
the reporting period.              2         $ 2,745,126       $0

Subtotals (A + B)                  3         $ 3,006,934       $0

C. For which a management
decision was made during the
reporting period.                  0             $0            $0

 (i) Dollar value of
recommendations that were
agreed to by management.           0             $0            $0

 (ii) Dollar value of
recommendations not agreed
to by management.                  0             $0            $0

D. For which no management
decision has been made by
the end of the reporting
period.                            2         $ 2,745,126       $0

E. Reports for which no
management decision was
made within 6 months of
issuance.                           1         $ 261,808         $0




                                        11
                                                     APPENDIX D
Reports With Potential Additional Program Funds

            Category                     Number   Dollar Value

A. For which no management
decision had been made by the
beginning of the reporting
period.                                    1        $ 3,222
B. Which were issued during the
reporting period.                          1       $ 12,182

Subtotals (A+B)                            2       $ 15,404

C. For which a management
decision was made during the
reporting period.                          0          $0

 (i) Dollar value of
recommendations that were agreed
to by management.                          0          $0

 (ii) Dollar value of
recommendations that were not
agreed to by management.                   0          $0

D. For which no management
decision has been made by the end
of the reporting period.                   1       $ 12,182

E. Reports for which no
management decision was made
within six months of issuance.             1        $ 3,222




                                    12
                                                                      APPENDIX E
Summary of Reports More Than 6 Months Old Pending
Corrective Action at September 30, 2009

The following is a list of audit and evaluation reports that are more than 6
months with management decisions for which corrective action has not been
completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action.

E-HP-IL-07-06              Administration of Payments Received Under the Help
                           America Vote Act by the Illinois State Board of
                           Elections, October 2006, 2 Recommendations

E-HP-SC-11-06              Administration of Payments Received Under the Help
                           America Vote Act by the South Carolina Election
                           Commission, January 2007, 3 Recommendations

E-HP-WY-03-07              Administration of Payments Received Under The Help
                           America Vote Act by the Wyoming Secretary Of State
                           Elections Division, January 2008, 2 Recommendations

E-HP-NM-01-07              Administration of Payments Received Under the Help
                           America Vote Act by the New Mexico Secretary of
                           State, May 2008, 2 Recommendations

E-HP-NC-04-08              Administration of Payments Received Under the Help
                           America Vote Act by the North Carolina State Board of
                           Elections, October 2008, 1 Recommendations

I-PA-EAC-01-06             Improvements Needed in Management of Travel by the
                           Election Assistance Commission, July 2007,
                           4 Recommendations

I-EV-EAC-01-07B            Assessment of the U.S. Election Assistance
                           Commission’s Program and Financial Operations,
                           February 2008, 16 Recommendations




                                         13
I-PA-EAC-01-08   Audit of the U.S. Election Assistance Commission’s
                 Fiscal Year 2008 Financial Statements, November
                 2008, 19 Recommendations

I-PA-EAC-02-08   Audit of U.S. Election Assistance Commission’s
                 Compliance with Section 522 of the 2005 Consolidated
                 Appropriations Act, March 2009, 4 Recommendations

I-EV-EAC-01-08   United States Election Assistance Commission Federal
                 Information Security Management Act 2008
                 Independent Evaluation Report, October 2008, 9
                 Recommendations




                             14
                                                                   APPENDIX F
Summary of Reports More Than 6 Months Old Pending
Management Decision at September 30, 2009

This listing included a summary of audit and evaluation reports that were more
than 6 months old on September 30, 2009, and still pending a management
decision. It provided report number, title, and number of unresolved
recommendations.


E-HP-FL-02-08             Administration of Payments Received Under the Help
                          America Vote Act by the State of Florida, November
                          2008, 1 Recommendation




                                       15
                                                                           APPENDIX G
Reporting Requirements of the IG Act

Section of Act                            Requirement                           Page

Section 4(a)(2)    Review of Legislation and Regulations                          5

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                None

Section 5(a)(2)    Recommendations for Corrective Action With Respect to         None
                   Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)    Significant Recommendations From Agency’s Previous
                   Report on Which Corrective Action Has Not Been Completed       13

Section 5(a)(4)    Matters Referred to Prosecutive Authorities and Resulting      6
                   Convictions

Section 5(a)(5)    Matters Reported to the Head of the Agency                    None

Section 5(a)(6)    List of Reports Issued During the Reporting Period             9

Section 5(a)(7)    Summary of Significant Reports                                 3

Section 5(a)(8)    Statistical Table – Questioned Costs                           11

Section 5(a)(9)    Statistical Table – Recommendations That Funds Be Put to      None
                   Better Use

Section 5(a)(10)   Summary of Audit Reports Issued Before the                     15
                   Commencement of the Reporting Period for Which No
                   Management Decision Has Been Made

Section 5(a)(11)   Significant Revised Management Decisions Made During          None
                   the Reporting Period

Section 5(a)(12)   Significant Management Decisions With Which the Inspector     None
                   General Is in Disagreement

Section 5(a)(13)   Information Described Under Section 804(b) of the Federal     None
                   Financial Management Improvement Act of 1996




                                           16
                           Help to ensure efficient, effective, and transparent EAC operations and
OIG’s Mission
                           programs




                           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/eac_ig.

                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
Obtaining Copies
                                U.S. Election Assistance Commission
of OIG Reports
                                Office of Inspector General
                                1225 New York Ave. NW - Suite 1100
                                Washington, DC 20005

                           To order by phone: Voice:    (202) 566-3100
                                                 Fax:   (202) 566-0957



                           By Mail: U.S. Election Assistance Commission
                                      Office of Inspector General
To Report Fraud, Waste
                                      1225 New York Ave. NW - Suite 1100
and Abuse Involving the               Washington, DC 20005
U.S. Election Assistance
Commission or Help         E-mail:    eacoig@eac.gov

America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)

                           On-Line Complaint Form: www.eac.gov/eac_ig

                           FAX: 202-566-0957
           Inspector General
          U.S. Election Assistance Commission




This report, as well as other OIG reports and testimony, are available on the
internet at: www.eac.gov/eac_ig
